IN THE
SUPREME COURT OF THE UNITED STATES
NO:

YAMILET DIAZ,
Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

DECLARATION VERIFYING TIMELY FILING

Petitioner Yamilet Diaz, by and through undersigned counsel, and pursuant
to Sup. Ct. R. 29.2 and 28 U.S.C. 1746, declares the petition for a writ of certiorari
filed in this matter was served by Federal Express, prepaid, addressed to the Clerk
of the Supreme Court of the United States, on this 23rd day of August, 2021, prior
to the date the petition for writ of certiorari is due on August 27, 2021, that is,
one-hundred fifty days after the March 31, 2021 denial of a timely petition for

panel rehearing of the United States Court of Appeals for the Eleventh Circuit.
Surfside, Florida
August 23, 2021

Respectfully submitted,

   
     

Martin A. Feigenbaum
Counsel for Petitioner
Florida Bar No. 705144
P.O. Box 545960

Surfside, Florida 33154
Telephone: (305) 323-4595
Facsimile: (844) 274-0862
Email: innering@aol.com

ilet Diaz
